               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Consolidation of Mail Processing
      Operations at the Mansfield, OH
     Customer Service Mail Processing
                  Center

                       Audit Report




                                              January 20, 2012

Report Number NO-AR-12-003
                                                                       January 20, 2012

                                                   Consolidation of Mail Processing
                                           Operations at the Mansfield, OH Customer
                                                     Service Mail Processing Center

                                                        Report Number NO-AR-12-003


IMPACT ON:
Mail processing operations in the            CSMPC exceeded national averages for
Northern Ohio District, Eastern Area.        delayed mail during the fall of 2010;
                                             (5) the Cleveland P&DC successfully
WHY THE OIG DID THE AUDIT:                   consolidated Saturday originating mail
This review is based on a request from       from the Mansfield CSMPC and other
U.S. Representative Robert E. Latta (5th     P&DCs; and (6) some AMP policies and
Congressional District, OH) to review        guidelines were not followed but this did
the consolidation of mail processing         not impact the business case supporting
operations from the Mansfield, OH            the consolidation.
Customer Service Mail Processing
Center (CSMPC) into the Cleveland, OH        WHAT THE OIG RECOMMENDED:
Processing and Distribution Center           We recommended the vice president,
(P&DC). The objectives were to               Eastern Area Operations, identify
determine whether a business case            repositioning plans for all impacted
exists supporting the consolidation and      employees at the Mansfield CSMPC,
assess compliance with established           and continue to monitor and take
area mail processing (AMP) guidelines.       necessary actions to process mail in a
                                             timely fashion at the Cleveland P&DC.
WHAT THE OIG FOUND:
A business case supporting the               WHAT MANAGEMENT SAID:
consolidation exists, producing a first      Management agreed with both
year savings of approximately $4.8           recommendations and will reposition
million if the U.S. Postal Service           employees within contractual provisions.
successfully repositions affected            In addition, specific monitoring and
employees. Our analysis also indicated       tracking mechanisms are in place and
(1) there would be a reduction of 103        post-implementation reviews will be
career craft positions and seven             used to determine whether additional
supervisor positions at the Mansfield        actions are needed.
CSMPC; (2) adequate capacity exists at
the Cleveland P&DC; (3) customer             AUDITORS’ COMMENTS:
service would be negatively impacted         The OIG considers management’s
for some First-Class® and Priority Mail®     comments responsive to the
service while Periodicals and Standard       recommendations and corrective actions
Mail service would be upgraded; (4) the      should resolve the issues identified in
Cleveland P&DC and the Mansfield             the report.

                                             Link to review the entire report
January 20, 2012

MEMORANDUM FOR:            JORDAN M. SMALL
                           VICE PRESIDENT, EASTERN AREA OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Consolidation of Mail Processing Operations
                           at the Mansfield, OH Customer Service Mail Processing
                           Center (Report Number NO-AR-12-003)

This report presents the results of our audit of the Mansfield, OH Customer Service Mail
Processing Center consolidation into the Cleveland, OH Processing and Distribution
Center (Project Number 11XG049NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    David E. Williams, Jr.
    Frank Neri
    Todd S. Hawkins
    Kristin A. Seaver
    Stephen E. Martin
    Corporate Audit and Response Management
Consolidation of Mail Processing Operations at the                                                                 NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center



                                                TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Employee Impact ............................................................................................................ 2

Cost Savings ................................................................................................................... 3

Capacity .......................................................................................................................... 3

Customer Service ............................................................................................................ 6

Saturday Consolidation Effect ....................................................................................... 12

AMP Guidelines ............................................................................................................ 14

Recommendations ........................................................................................................ 15

Management’s Comments ............................................................................................ 15

Evaluation of Management’s Comments ....................................................................... 15

Appendix A: Additional Information ............................................................................... 16

   Background ............................................................................................................... 16

   Objectives, Scope, and Methodology ........................................................................ 18

   Prior Audit Coverage ................................................................................................. 19

Appendix B: Estimated Cost Savings Breakdown ......................................................... 24

Appendix C: Management’s Comments ........................................................................ 25
Consolidation of Mail Processing Operations at the                                            NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center



Introduction

This report presents the results of our audit of the Mansfield, OH Customer Service Mail
Processing Center (CSMPC) consolidation into the Cleveland, OH Processing and
Distribution Center (P&DC) (Project Number 11XG049NO000). The report responds to
a request from U.S. Representative Robert E. Latta (5th Congressional District, OH).
Our objectives were to determine whether a business case exists to support the
consolidation of mail processing operations and to assess compliance with established
area mail processing (AMP) guidelines. The audit addresses operational risk. See
Appendix A for additional information about this audit.

The Postal Service uses the AMP process to determine whether they can consolidate
mail processing operations to increase efficiency and reduce costs. Some pertinent
questions regarding AMP studies are as follows.

     Is mail processing plant consolidation necessary to control costs, increase efficiency,
      and improve productivity?

     Will Postal Service customers continue to receive the same high-quality service?

     Will the Postal Service reassign affected career employees to other jobs?

                                         The Mansfield, OH CSMPC




      Source: U.S. Postal Service OIG photograph taken August 23, 2011.


Conclusion

A business case supporting the consolidation does exist, and should produce a first
year savings of about $4.8 million, providing that the U.S. Postal Service successfully
repositions affected employees.1

1
    Repositioning plans may include voluntary and involuntary reassignments or retirements.
                                                           1
Consolidation of Mail Processing Operations at the                                                      NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


Our analysis also concluded that:

   There will be a reduction of 103 career craft positions (clerk, mail handler, and
    maintenance) and seven executive and schedule (EAS) positions at the Mansfield
    CSMPC.

   There is adequate capacity at the Cleveland P&DC to consolidate the Mansfield
    CSMPC.

   The consolidation would improve Periodicals and Standard Mail® service to
    customers currently served by the Mansfield CSMPC and downgrade some
    First-Class® and Priority Mail® services.

   Both the Cleveland P&DC and the Mansfield CSMPC exceeded national averages
    for delayed mail during the fall of 2010.

   The Cleveland P&DC has successfully processed all Mansfield CSMPC Saturday
    originating mail, as well as Saturday originating mail from the Toledo and
    Youngstown P&DCs.

   Employees did not follow some AMP policies and guidelines, but this did not impact
    the business case supporting the consolidation.

Employee Impact

Consolidation of the Mansfield CSMPC into the Cleveland P&DC will have an impact on
employees. Specifically:

   There will be a reduction of 103 career craft positions (clerk, mail handler, and
    maintenance) and seven EAS positions at the Mansfield CSMPC.

   Over 100 previously displaced Cleveland P&DC employees maintain retreat rights2
    at the Cleveland P&DC. This means they have first preference for any available
    positions at the Cleveland P&DC.

   Within 50 miles of the Mansfield CSMPC, there were two clerk and four carrier
    positions vacant at the time of our fieldwork. Additionally, two maintenance
    employees have requested other positions.

   Forty craft and one EAS employee are eligible for retirement; however, only
    six employees would retire based on the Postal Service-wide attrition rate of
    approximately 5 percent.


2
  An involuntarily reassigned employee may exercise retreat rights when a vacancy occurs at the original office from
which the employee was transferred. Employees retain retreat rights until they decline an offer to return to the loosing
facility.


                                                           2
Consolidation of Mail Processing Operations at the                                                   NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


   EAS employees may apply for promotions or reassignment, return to a craft position,
    or be placed in other facilities.

   The AMP proposal did not include any relocation costs for affected employees.

Following the projected placement, reassignment, or retirement of 14 employees, there
will be 89 career craft employees without assignments. Under existing union
agreements,3 management cannot lay off career employees; therefore the 89 career
craft employees will remain in pay status.

Cost Savings

Proposed cost savings will primarily result in workhour reductions and maintenance
savings. The Postal Service estimates a first year cost savings of $4,828,156 as a result
of the consolidation, taking into account workhours, maintenance, transportation, and
equipment costs. The U.S. Postal Service Office of Inspector General (OIG) agrees with
this estimate assuming the Postal Service identifies repositioning plans for all displaced
Mansfield CSMPC employees4 (see Appendix B). Of the 114 employees impacted by
the AMP, 11 are support employees who management can terminate; six are likely to
retire based on the national attrition rate; and eight employees will be relocated into
available positions within a 50-mile radius.

Capacity

Adequate capacity and space exists at the Cleveland P&DC to consolidate Mansfield
CSMPC mail volume.

   Mail Volume: Mail volume at the Mansfield CSMPC of approximately 220.6 million
    pieces per year, representing 15 percent of the Cleveland P&DC’s total
    First-Handling Pieces (FHP) volume during the AMP period of April 1, 2010 through
    March 31, 2011 (see Chart 1).




3
  Article 6 of the Agreements between the U.S. Postal Service and the National Postal Mail Handlers Union and
between the U.S. Postal Service and the American Postal Workers Unions protects regular employees with 6 or more
years of service from layoffs.
4
  Salaries and benefits for 89 displaced Mansfield CSMPC employees who would be relocated as a result of the AMP
are estimated at $5,449,774 per year. If the Postal Service does not identify repositioning plans for these impacted
employees, the AMP savings will decrease from $4,828,156 to a savings shortfall (or cost) of $621,618.


                                                         3
Consolidation of Mail Processing Operations at the                                                   NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


               Chart 1: Cleveland P&DC and Mansfield CSMPC FHP Volume




       Source: Electronic Data Warehouse (EDW)

Additional mail volume from the Mansfield CSMPC will help absorb idle capacity at the
Cleveland P&DC. The projected combined Cleveland P&DC and Mansfield CSMPC
mail volume of 1.69 billion mailpieces is comparable to the volume processed at the
Cleveland P&DC several years ago.5 Our analysis determined that the Cleveland P&DC
could process approximately 1.8 million mailpieces, or an additional 343 million
mailpieces.

   Floor Space: Adequate floor space exists at the Cleveland P&DC for additional
    equipment, staging, and manual operations to process additional mail from the
    Mansfield CSMPC. For instance, the Cleveland P&DC has sufficient floor space to
    accommodate five additional delivery barcode sorters (DBCSs). Picture 1 below
    shows some additional floor space.




     Picture 1: Empty space at the
        Cleveland P&DC that is
      available to accommodate
            another DBCS.

      August 25, 2011, 12:39 p.m.




5
 Cleveland P&DC mail volume declined by 13.7 percent, or from 1.67 billion mailpieces in fiscal year (FY) 2007 to
1.44 billion mailpieces in FY 2011.


                                                         4
Consolidation of Mail Processing Operations at the                                         NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center



   Dock Capacity: The Cleveland P&DC has adequate dock door capacity to
    accommodate arriving and departing mail to and from the Mansfield CSMPC. The
    Cleveland P&DC has 74 dock doors, many of which no one uses (see Picture 2).




    Picture 2: The Cleveland P&DC
             loading dock.

       August 25, 2011, 12:46 p.m.




   Machine Capacity: The Cleveland P&DC has sufficient machine capacity to process
    the combined Mansfield CSMPC and Cleveland P&DC mail volume on the
    Advanced Facer Canceller System (AFCS), delivery barcode sorter input/output
    subsystem (DIOSS), and the automated flat sorter machine 100 (AFSM 100). Even
    after the consolidation, the Cleveland P&DC will still have excess capacity on its mail
    processing equipment (see Table 1 and Pictures 3 and 4).

                           Table 1: Cleveland P&DC Machine Capacity
Equipment         Existing        Proposed          Projected            Cleveland           Utilized
                 Equipment        Equipment       Cleveland and           Annual            Capacity
                   Count            Count           Mansfield            Capacity           (Percent)
                 (WebEOR)                            Volume
AFCS                   7                7           206,751,697         444,763,200          46.49%
AFSM                   4                3           172,780,472         188,325,000          91.75%
CIOSS*                 2                2           140,288,664         195,300,000          71.83%
DBCS**                24               29          1,674,526,119       3,728,602,500         44.92%
DBCS-
OSS***                 6                6           694,553,524         761,670,000          91.19%
DIOSS                  7                7           528,692,337         729,120,000          72.51%
SPBS****               2                2           35,794,604           47,894,814          74.74%
Source: EDW
    *Combined Input Output Subsystem (CIOSS)
    **Per the consolidation, the Postal Service will transfer five DBCSs from the Mansfield CSMPC to the
    Cleveland P&DC. The capacity for the existing 24 DBCSs at the Cleveland P&DC is 3,085,740,000
    mailpieces. The combined projected volume would use 54.2 percent of this capacity.
    ***Delivery Barcode Sorter-Output Subsystem (DBCS-OSS)
    **** Small Parcel Bundle Sorter (SPBS)




                                                   5
Consolidation of Mail Processing Operations at the                                                         NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center




     Picture 3: An idle DIOSS at the
    Cleveland P&DC. Only five of the
      seven DIOSS machines were
                 running.

       August 26, 2011, 7:02 p.m.




      Picture 4: Low collection mail
    volume creates large gaps on the
     belts between hamper dumps at
           the Cleveland P&DC.

       August 26, 2011, 7:42 p.m.




Customer Service

We reviewed four measures of customer service: the External First-Class Measurement
System (EXFC),6 the Customer Experience Measurement System (CEMS),7 projected
service standard8 upgrades and downgrades, and delayed mail trends. Additionally, we


6
  The EXFC is a system whereby a contractor performs independent service performance tests on First-Class Mail
deposited in collection boxes and business mail chutes. It provides national, area, performance cluster, and city
estimates; and compares them with the Postal Service’s service goals. The Postal Service releases results to the
public quarterly. The results are reported as on-time percentages (see Charts 2 through 4).
7
  CEMS provides an end-to-end approach to assessing experience with the Postal Service from the customers’
perspective, including quality of service received.
8
  Stated delivery performance goals for each mail class and product that are usually measured in days the Postal
Service takes to handle the mail from end-to-end (that is, from the point of entry into the mailstream to delivery to final
destination). Upgrades to service standards after a consolidation indicate that end-to-end mail handling occurs in less
time than the established standard requires. Downgrades to service standards after a consolidation indicate that
end-to-end mail handling occurs in more time than the established standard permits.


                                                            6
Consolidation of Mail Processing Operations at the                           NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


reviewed 24-hour clock indicators. Our review indicated potentially positive and negative
customer service impacts, specifically:

   EXFC: The consolidation will have a minimal impact on EXFC scores. During the
    AMP review period, the Cleveland P&DC outperformed the Mansfield CSMPC for
    most quarters in overnight and 2-day EXFC service, while the Mansfield CSMPC
    outperformed the Cleveland P&DC in 3-day EXFC service. See Charts 2 through 4
    for additional details.

                   Chart 2: Cleveland P&DC versus Mansfield CSMPC
                             Overnight EXFC Service Scores
                         Quarter 3, FY 2010–Quarter 3, FY 2011




               Source: EDW




                                                  7
Consolidation of Mail Processing Operations at the                        NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                         Chart 3: Cleveland P&DC versus Mansfield CSMPC
                                     2-Day EXFC Service Scores
                               Quarter 3, FY 2010–Quarter 3, FY 2011




              Source: EDW

                   Chart 4: Cleveland P&DC versus Mansfield CSMPC
                               3-Day EXFC Service Scores
                         Quarter 3, FY 2010–Quarter 3, FY 2011




               Source: EDW




                                                  8
Consolidation of Mail Processing Operations at the                                                   NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


    CEMS: The CEMS average residential scores for the Mansfield CSMPC consistently
     outperformed the Cleveland P&DC during FY 2010 and 2011 (see Chart 5).

                     Chart 5: FY 2010 and FY 2011 Customer Experience
                        Measurement Program Residential Scores9
                                      FY 2010–FY 2011
                           100


                           95


                           90
    Percent of Customers
     Rating Their Postal
                           85
     Service Experience
       Good or Better
                           80


                           75


                           70
                                 Q1 FY10   Q2 FY10   Q3 FY10    Q4 FY10    Q1 FY11   Q2 FY11    Q3 FY11   Q4 FY11

                           Cleveland 440     Cleveland 441       Mansfield 448       Mansfield 449

Source: USPS Corporate Knowledge Management

    Service Standards: The AMP study identified a total of 2,398 upgrades and 222
     downgrades, all of which affect customer service. The majority of the downgrades
     are in First-Class10 and Priority Mail while the upgrades are in Periodicals and
     Standard Mail. Specifically:

     o There will be eight upgrades and 34 downgrades to First-Class Mail service.
       These downgrades will be to overnight service and affect approximately
       2.1 percent of average daily volume, or about 91,277 mailpieces per day.

     o There will be 14 upgrades and 146 downgrades to Priority Mail. These
       downgrades will affect 1.6 percent of the average daily Priority Mail volume, or
       about 635 mailpieces per day.

     Table 2 shows the number of service standard changes by class of mail in the AMP
     study.




9
  440 and 441 are the 3-digit zones served by the Cleveland P&DC; 448 and 449 are the 3-digit zones served by the
Mansfield CSMPC.
10
   On December 5, 2011, the Postal Service requested an advisory opinion of the Postal Regulatory Commission on
modifying service standards to eliminate overnight First-Class Mail service.


                                                        9
Consolidation of Mail Processing Operations at the                                                        NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                   Table 2: Impact on Service Standards for all Mail Classes
                3-Digit ZIP Code Pair   Upgrades Downgrades Net Change
                  Service Standard
                       Impacts
                   First-Class Mail         8            34             (26)
                       Priority Mail                      14                 146                  (132)
                        Periodicals                      508                  34                   474
                       Standard Mail                   1,852                   0                  1,852
                   Package Services                       16                   8                    8
                       All Classes                     2,398                 222                  2,176
            Source: USPS Network Integration Support

      Delayed Mail Trends: Both the Cleveland P&DC and the Mansfield CSMPC
       exceeded national averages for delayed mail during the fall of 2010 (October
       through December). During Quarter 1, FY 2011, the Postal Service had more than
       3.4 billion delayed mailpieces, representing 6 percent of total mail volume. During
       the same period, the Cleveland P&DC had 62 million delayed mailpieces,
       representing almost 16 percent of their total mail volume, while the Mansfield
       CSMPC reported delays of 11.5 million mailpieces, or 19.5 percent of their mail
       volume. Approximately 97 percent of the Cleveland P&DC’s and 100 percent of the
       Mansfield CSMPC’s delayed mail was Standard Mail. Nationally, Standard Mail
       accounts for 95 percent of delays. The Cleveland P&DC experienced the fourth
       highest amount of delayed mail among similar sized Group 111 facilities (see Table
       3).

     Table 3: Group 1 Facility Delayed Mail as a Percentage of First Handled Pieces
                        (FHP) for the 2010 Fall Mailing Season
                Rank                                Plant                            Percentage of FHP
                   1              Pittsburgh P&DC                                                19.52%
                   2              St. Louis P&DC                                                 16.90%
                   3              Carol Stream P&DC                                              15.68%
                   4              Cleveland P&DC                                                 15.59%
                   5              Columbus P&DC                                                  13.05%
                   6              Richmond P&DC                                                  12.82%
                   7              Philadelphia P&DC                                              11.60%
                   8              North Metro P&DC                                               10.64%
                   9              Milwaukee P&DC                                                  9.98%
                  10              Michigan Metroplex P&DC                                         9.92%
       Source: EDW



11
     Group 1 plants represent the largest 43 mail processing facilities in the Postal Service.


                                                               10
Consolidation of Mail Processing Operations at the                             NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


        Picture 5: Delayed mail with
        requested in-home dates of
       September 9 to September 13,
     2011, waits for processing at the
     Cleveland P&DC. In addition, the
    incomplete color code tag adds to
    mail processing delays. Completed
      tags allow mail to be worked in
           first in, first out order.

        September 15, 2011, 2 p.m.




     24-Hour Clock Indicators: Neither the Cleveland P&DC nor the Mansfield CSMPC
      met performance targets for several selected customer service indicators. However,
      the Mansfield CSMPC scored better in most areas. Specifically, the Mansfield
      CSMPC achieved cancellations by 8 p.m. and clearance by 12 a.m. and assigned
      mail to outgoing flights by 2:30 a.m., while the Cleveland P&DC did not achieve any
      of these goals (see Table 4). Additionally, the Mansfield CSMPC exceeded national
      averages for all applicable mail processing indicators while the Cleveland P&DC
      only exceeded the national average in three of seven indicators. The additional mail
      volume transferred to the Cleveland P&DC from the Mansfield CSMPC could further
      negatively influence timely processing and delivery of mail.




                                                  11
Consolidation of Mail Processing Operations at the                                       NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


      Table 4: 24-Hour Clock Indicators (April 1, 2010, through March 31, 2011)
                                         National         Cleveland          Mansfield    National
            Indicator                    Scores             P&DC              CSMPC       Targets
 Cancel 80 percent of collection
                                          68.64%            72.83%            83.39%        80%
 mail by 8 p.m.
 Clear outgoing primary mail by
                                          94.13%            91.07%            99.86%        100%
 11 p.m.
 Clear outgoing secondary mail
                                          91.50%            59.78%             100%         100%
 by 12 a.m.
 Clear Managed Mail Program
 (MMP) mail by 12 a.m. - zero             91.61%            98.74%              NA          100%
 MMP
 Assign mail to
 commercial/FedEx outgoing                90.45%            73.48%             100%         100%
 mail by 2:30 a.m.
 Clear Delivery Point Sequence
                                          97.88%            99.24%            99.25%        100%
 2nd Pass by 7 a.m.
 Trips on-time between
                                          77.83%            67.89%            85.67%        100%
 4 a.m.-9 a.m. to delivery units
Source: USPS Service and Field Operations Performance Measurement website.

   Other Customer Service Impacts: Under the consolidation, the last collection box
    pick-up from the Mansfield CSMPC would not change from the current 6 p.m. In
    addition, the hours of operation for the Mansfield CSMPC business mail entry unit
    and retail unit would not change. Finally, customers wishing to receive the Mansfield
    postmark would continue to receive it at the retail window.

Saturday Consolidation Effect

The Cleveland P&DC has successfully been processing originating mail on Saturday
from the Mansfield CSMPC as well as the Saturday originating mail from the Toledo
and Youngstown P&DCs for several years, resulting in improved productivity. For
example, during the period covered by the AMP package (April 1, 2010 to March 31,
2011), the Cleveland P&DC achieved the highest productivity on Saturdays in terms of
total pieces of all types of mail processed per hour (see Chart 6).




                                                    12
Consolidation of Mail Processing Operations at the                        NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


               Chart 6: Cleveland’s FHP Productivity by Day of the Week




      Source: EDW

In addition, the Cleveland P&DC has maintained Saturday service scores with minimum
variation when compared to the other weekdays. Chart 7 illustrates service scores
during the AMP data period.

              Chart 7: Cleveland’s EXFC Service Scores by Day of Week




Source: EDW




                                                  13
Consolidation of Mail Processing Operations at the                                               NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


AMP Guidelines

The Postal Service has complied with stakeholder communication policies, however,
some of the AMP study steps had not been completed within established timeframes.
Not meeting these timeframes did not adversely affected the consolidation
determination process. See Table 6 for a timeline of events.

                                 Table 6: AMP Timeline of Events
                                                   Was Step                          Accomplished
             Event                     Date
                                                Accomplished?                       Within Timeframe?
Area vice president (AVP)
notified district manager or
                                        4/8/2011                Yes                            Yes
district manager notified AVP of
intent to conduct study.
Stakeholders notified of the           4/19/2011                Yes                            Yes
intent to conduct study.
District manager completed
feasibility study and submitted to                                                                 (1)
                                       6/24/2011                Yes                           No
AVP within 2 months of
notification to conduct study.
District manager held public
                                                                                                   (2)
input meeting within 45 days           8/23/2011                Yes                           No
after study submitted to AVP.
District manager summarized
information from public meeting                                                                    (3)
                                       9/12/2011                Yes                           No
and written comments within
15 days after meeting.
AVP and headquarters vice
president reviewed the feasibility
                                                                                                   (4)
study within 60 days from the         10/21/2011                Yes                           No
time the study is submitted to the
AVP.
AVP approved study after
finalized worksheets were
approved by area and                                                                               (4)
                                      10/21/2011                Yes                           No
headquarters and submitted
study to senior vice president
(SVP), Operations.
SVP approved study within
                                      10/21/2011                Yes                            Yes
2 weeks of receipt from AVP.
        (1) 15 days late.
        (2) 15 days late.
        (3) 5 days late. The public meeting was held August 23, 2011; however, the public comment period ended
            September 7, 2011. Information from the input period and the public meeting was summarized together.
        (4) 59 days late.




                                                      14
Consolidation of Mail Processing Operations at the                             NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


Recommendations

We recommend the vice president, Eastern Area Operations:

1. Identify repositioning plans for all impacted employees at the Mansfield, OH
   Customer Service Mail Processing Center.

2. Continue to monitor and take necessary actions to ensure mail is processed timely
   at the Cleveland Processing and Distribution Center.

Management’s Comments

Management agreed with the two recommendations in the report. Specifically,
management stated that:

   It will reposition employees within contractual provisions and, if necessary, seek to
    expand the current 50-mile radius for relocation purposes to create additional
    positions.

   Specific monitoring and tracking mechanisms are in place and they will use
    post-implementation reviews to determine whether additional actions are needed to
    ensure mail is processed timely.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations
corrective actions should resolve the issues identified in the report.

The OIG considers both recommendations as significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                  15
Consolidation of Mail Processing Operations at the                                             NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                               Appendix A: Additional Information

Background

The U.S. Postal Service ended FY 2011 with a net loss of $10.6 billion, compared to a
net loss of $8.3 billion for FY 2010. Total mail volume declined to 168 billion pieces for
the year, compared to 171 billion pieces in FY 2010. The growth in electronic
communications continues to erode core First-Class Mail volume, the Postal Service’s
largest and most profitable product. Revenue from First-Class Mail continued its decline
from $34.2 billion in 2010 to $32.2 billion in 2011.

Even with significant cost reductions and revenue growth initiatives, financial projections
indicate the Postal Service will have a cash shortfall and will have reached its statutory
borrowing limit by the end of the fiscal year. Absent substantial legislative change, the
Postal Service will be forced to default on payments to the federal government. “We
continue to take aggressive actions to reduce costs and bring the size of our
infrastructure into alignment with reduced customer demand,” said postmaster general
and Chief Executive Officer Patrick Donahoe.

In testimony before Congress,12 the U.S. Government Accountability Office (GAO) said
action is urgently needed to facilitate the Postal Service’s financial viability, as it cannot
support its current level of service and operations. Congress, the Postal Service, the
administration, and stakeholders need to agree on a package of action to restore the
Postal Service’s financial viability and take steps to modernize and restructure it. The
Postal Service needs to become a leaner, more flexible organization, so that it can
operate more efficiently, control costs, keep rates affordable, and meet customers’
changing needs. The Postal Service’s operations, networks, and workforce need to be
realigned with the changes in mail usage and customer behavior, as the Postal Service
now has costly excess capacity.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas.” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services . . .”




12
  GAO-11-428T, Testimony before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy,
Committee on Oversight and Government Reform, House of Representatives, dated March 2, 2011.


                                                     16
Consolidation of Mail Processing Operations at the                                                      NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


In October 2011, the Postal Service created a portfolio of 36 strategic initiatives 13 to
meet ambitious performance and financial goals. Included in these initiatives is network
optimization through reducing plants, adjusting the workforce, and increasing the use of
processing equipment. Additionally, a bipartisan Senate bill titled 21st Century Postal
Service Act of 2011 was proposed on November 2, 2011. It would provide the Postal
Service about $7 billion to pay for employee buyouts of up to $25,000 for as many as
100,000 eligible postal workers.

This report responds to a request from U.S. Representative Robert E. Latta (5th
Congressional District, OH) to conduct an independent study of the consolidation of mail
cancellation and processing operations from the Mansfield CSMPC into the Cleveland
P&DC. The representative is concerned that mail collection and delivery standards that
his constituents depend on not be compromised by the Postal Service’s efforts to
streamline operations.

This consolidation would move the originating and destinating operations from the
Mansfield CSMPC to the Cleveland P&DC. The Mansfield CSMPC is approximately
81.5 miles southwest of the Cleveland P&DC and both are in the Northern Ohio District
of the Eastern Area.




13
   The Postal Service established the DRIVE initiative, which stands for Delivering Results, Innovation, Value, and
Efficiency in October 2011. DRIVE is a management process the Postal Service is using to improve business
strategy development and execution. This initiative is based on a well-established methodology used by many
corporations to apply strategic and financial rigor to decision making, and to navigate through significant
organizational changes. DRIVE focuses on a portfolio of 36 strategic initiatives the Postal Service will implement to
meet its ambitious performance and financial goals.


                                                          17
Consolidation of Mail Processing Operations at the                         NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                              Map 1: The Northern Ohio District




Objectives, Scope, and Methodology

Our audit objectives were to determine whether a business case exists to support the
consolidation of mail processing operations from the Mansfield CSMPC into the
Cleveland P&DC and whether AMP guidelines were followed. We reviewed data
captured from October 1, 2006, through September 30, 2011, to analyze current and
potential efficiencies for both plants as well as capacity at the Cleveland P&DC.
Additionally, we reviewed service scores for that same period. We also estimated the
costs and savings from this analysis. We conducted observations at both sites during
August and September 2011 and interviewed management.

We used computer-processed data from the following systems:

   CEMS
   Electronic Facilities Management System.
   EDW
   Web Complement Information System.
   Web End of Run.

We conducted this performance audit from August 2011 through January 2012 in
accordance with generally accepted government auditing standards and included such


                                                  18
   Consolidation of Mail Processing Operations at the                                    NO-AR-12-003
    Mansfield, OH Customer Service Mail Processing Center


   tests of internal controls as we considered necessary under the circumstances. Those
   standards require that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based on our
   audit objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objectives. We discussed our
   observations and conclusions with management on December 2, 2011, and included
   their comments where appropriate.

   We assessed the reliability of computer-generated data by interviewing agency officials
   knowledgeable about the data. We determined that the data were sufficiently reliable for
   the purposes of this report.

   Prior Audit Coverage

 Report Title          Report             Final           Monetary            Report Results
                       Number            Report            Impact
                                          Date
Area Mail            EN-AR-09-001        2/4/2009           None     Management agreed with our
Processing                                                           recommendation to add employee
Communications                                                       input notifications but disagreed with
                                                                     the recommendation to explore
                                                                     additional communication channels.
Canton               NO-AR-09-011        9/22/2009          None     Consolidating the Canton Processing
Processing and                                                       & Distribution Facility (P&DF)
Distribution                                                         outgoing mail processing operations
Facility Outgoing                                                    into the Akron P&DC was a prudent
Mail                                                                 business decision. We made no
Consolidation                                                        recommendations.
New Castle           NO-AR-10-002        2/1/2010           None     Consolidating New Castle P&DF
Processing and                                                       outgoing mail processing operations
Distribution                                                         into the Pittsburgh P&DC is a
Facility Outgoing                                                    prudent business decision. We made
Mail                                                                 no recommendations.
Consolidation
Manasota             EN-AR-10-003        2/12/2010          None     There was a valid business case for
Processing and                                                       consolidating mail processing
Distribution                                                         operations from the Manasota P&DC
Center                                                               to the Tampa P&DC. We
Consolidation                                                        recommended management ensure
                                                                     that implementation activities of
                                                                     P&DC consolidations begin
                                                                     immediately after AMP proposal
                                                                     approval and require headquarters’
                                                                     approval when implementation is
                                                                     delayed more than 3 months and
                                                                     enable the automatic feed into the
                                                                     Web Management Operating Data
                                                                     System for Express Mail scanning
                                                                     operations. Management agreed with
                                                                     our recommendations.



                                                     19
   Consolidation of Mail Processing Operations at the                                        NO-AR-12-003
    Mansfield, OH Customer Service Mail Processing Center


Lakeland             EN-AR-10-004        2/12/2010           None        There was a valid business case for
Processing and                                                           consolidating mail processing
Distribution                                                             operations from the Lakeland P&DC
Center                                                                   into the Tampa P&DC. We made no
Consolidation                                                            recommendations.
Dallas Processing    NO-AR-10-003        2/24/2010        $114,000,000   Consolidating the Dallas P&DC
and Distribution                                                         outgoing mail operation into the
Center Outgoing                                                          North Texas P&DC would result in an
Mail                                                                     annual savings of $11,997,208 for a
Consolidation                                                            total economic impact of
                                                                         $114,041,172 over 10 years. We
                                                                         recommended management
                                                                         consolidate Dallas P&DC outgoing
                                                                         mail operations into the North Texas
                                                                         P&DC, postmark outgoing letter mail
                                                                         cancelled at the North Texas P&DC
                                                                         with a combined postmark, conduct
                                                                         training classes to inform employees
                                                                         of retirement benefits, and hold
                                                                         meetings with employees to update
                                                                         them on the consolidation process as
                                                                         it moves forward. Management
                                                                         agreed with monetary impact and the
                                                                         recommendations.
Consolidation of     NO-AR-10-007        7/2/2010            None        A business case exists to support
Lima Processing                                                          consolidating the Lima P&DF’s mail
& Distribution                                                           operations into the Toledo P&DC.
Facility Mail                                                            We recommended management
Operations Into                                                          monitor service scores during
the Toledo                                                               implementation, continue to hold
Processing &                                                             employee briefings, meet with
Distribution                                                             employees to update them on the
Center                                                                   consolidation process, and ensure
                                                                         that Toledo P&DC access points are
                                                                         secure. Management agreed with the
                                                                         recommendations.
Charlottesville      NO-AR-10-008        8/3/2010            None        There was a valid business case for
Processing and                                                           consolidating mail processing
Distribution                                                             operations from the
Facility                                                                 Charlottesville P&DF into the
Consolidation                                                            Richmond P&DC. We made no
                                                                         recommendations.
Review of            NO-AR-11-001        10/4/2010           None        We assessed the operational
Wilkes-Barre, PA                                                         impacts of the consolidation and
Processing and                                                           determined that a valid business
Distribution                                                             case existed for consolidating mail
Facility                                                                 processing operations from the
Consolidation                                                            Wilkes-Barre P&DF into the
                                                                         Scranton P&DF and the Lehigh
                                                                         Valley P&DC. We made no
                                                                         recommendations.




                                                     20
   Consolidation of Mail Processing Operations at the                                          NO-AR-12-003
    Mansfield, OH Customer Service Mail Processing Center


Marysville, CA       NO-AR-11-002       11/23/2010           None        We assessed the operational
Processing and                                                           impacts of the consolidation and
Distribution                                                             determined that a valid business
Facility                                                                 case existed for consolidating mail
Consolidation                                                            processing operations from the
                                                                         Marysville P&DF into the
                                                                         Sacramento P&DC. We made no
                                                                         recommendations.
Houston, TX          NO-AR-11-004       12/14/2010        $189,744,682   A business case exists to consolidate
Processing and                                                           the Houston P&DC’s mail processing
Distribution                                                             operations into the North Houston
Center Mail                                                              P&DC. We recommended
Consolidation                                                            management postmark outgoing
                                                                         letter mail cancelled at the North
                                                                         Houston P&DC with a combined
                                                                         postmark, update employees on the
                                                                         consolidation process, and monitor
                                                                         service scores during
                                                                         implementation. Management agreed
                                                                         with the recommendations.
Columbus, GA         NO-AR-11-005        2/14/2011           None        A favorable business case existed to
Customer Service                                                         support consolidating the Columbus
Mail Processing                                                          CSMPC’s originating mail operation
Center                                                                   into the Macon P&DC. We made no
Originating Mail                                                         recommendations.
Consolidation
Implementation of    EN-AR-11-004        3/31/2011          $105,125     While there was a valid business
Lima, OH to                                                              case for consolidation of the Lima
Toledo, OH Area                                                          P&DF into the Toledo P&DC,
Mail Processing                                                          management did not ensure on-time
Consolidation                                                            performance and customer service
                                                                         were improved or maintained during
                                                                         the implementation of the
                                                                         consolidation. We recommended
                                                                         management promptly assess the
                                                                         current mail volume and swiftly
                                                                         adjust workhours, sort plans,
                                                                         transportation, and any other
                                                                         operational requirements; expedite
                                                                         filling vacant positions and assess
                                                                         any additional staffing requirements
                                                                         at all levels; assess and take
                                                                         appropriate corrective action related
                                                                         to mail processing space and
                                                                         transportation issues; and establish
                                                                         and deploy formal AMP
                                                                         implementation teams to the gaining
                                                                         facilities for plant consolidations that
                                                                         result in a facility closure.
                                                                         Management agreed with the
                                                                         recommendations.




                                                     21
   Consolidation of Mail Processing Operations at the                                        NO-AR-12-003
    Mansfield, OH Customer Service Mail Processing Center


Assessment of        NO-MA-11-004        5/20/2011        $647,586,823   Management agreed they could
Overall Plant                                                            improve operational efficiency by
Efficiency 2011                                                          reducing more than 14 million
                                                                         workhours by the end of FY 2013.
                                                                         This would allow the Postal Service
                                                                         to achieve at least median
                                                                         productivity levels in the network and
                                                                         avoid costs of more than
                                                                         $647.5 million based on workhour
                                                                         savings for 1 year.
A Strategy for a     RARC-WP-11-         7/6/2011            None        The Postal Service continues to
Future Mail             006                                              make gradual progress in rightsizing
Processing &                                                             the network. In the next 10 years,
Transportation                                                           over half of the Postal Service’s work
Network                                                                  force will be eligible to retire and
                                                                         substantive restructuring with
                                                                         significant savings can occur with
                                                                         minimal relocations and layoffs. A
                                                                         very large portion of customers are
                                                                         open to relaxing the existing service
                                                                         standards in exchange for achieving
                                                                         substantial economies.
Oshkosh, WI          NO-AR-11-006        7/29/2011           None        Although the consolidation would
Processing and                                                           result in cost savings, adequate
Distribution                                                             facility and machine capacity does
Facility                                                                 not exist at the Green Bay P&DC to
Consolidation                                                            process the additional mail volume
                                                                         and service could be negatively
                                                                         impacted. We recommended
                                                                         management re-evaluate capacity at
                                                                         the Green Bay P&DC to determine if
                                                                         sufficient work floor and dock space
                                                                         is available and reassess machine
                                                                         capacity, especially with regards to
                                                                         the flat volumes. Management
                                                                         agreed with recommendation 1.
                                                                         However, they disagreed with the
                                                                         logic used in our analysis of floor
                                                                         space needs, asserting the analysis
                                                                         was too high level. Management
                                                                         agreed with recommendation 2.
Flint, MI            EN-AR-12-001        10/6/2011           None        A valid business case exists to
Processing and                                                           consolidate mail processing
Distribution                                                             operations from the Flint P&DC into
Center                                                                   the Michigan Metroplex P&DC to
Consolidation                                                            achieve cost savings of
                                                                         approximately $6 million annually.
                                                                         We made no recommendations.




                                                     22
   Consolidation of Mail Processing Operations at the                                  NO-AR-12-003
    Mansfield, OH Customer Service Mail Processing Center


Industry, CA         NO-AR-12-002       10/17/2011          None   A valid business case exists to
Processing and                                                     consolidate originating mail
Distribution                                                       processing operations from the
Center                                                             Industry P&DC into the Santa Ana
Originating Mail                                                   P&DC to achieve cost savings of
Consolidation                                                      approximately $1.32 million annually.
                                                                   We made no recommendations.




                                                     23
Consolidation of Mail Processing Operations at the                                                       NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                        Appendix B: Estimated Cost Savings Breakdown

                                                                                          AMP
                                      Savings/Cost
                                                                                         Study
               Mail Processing Craft Workhour Savings                                    $3,213,419
               Non-Mail Processing/Management Shared14
               Labor Distribution Codes Workhours Savings                                     101,815
               Management Workhour Savings                                                    857,433
               Transportation Costs                                                       (200,580)
               Maintenance Savings                                                        1,131,369
               Total One-Time Costs                                                       (275,300)
               Total First Year Savings15                                                $4,828,156
              Note: Red numbers in the chart are a cost.




14
  Workhour saving that can be allocated to mail processing such as administrative functions.
15
  Salaries and benefits for 89 displaced Mansfield CSMPC employees who would need to be relocated as a result of
the AMP are estimated at $5,449,774 per year. Of the 114 employees impacted by the AMP, 11 are casual and can
be terminated, six are likely to retire based on the national attrition rate, and eight will be relocated into available
positions within a 50-mile radius. If the Postal Service does not identify repositioning plans for these impacted
employees, the AMP will result in a savings shortfall or cost of $621,618.


                                                           24
Consolidation of Mail Processing Operations at the            NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center


                          Appendix C: Management’s Comments




                                                  25
Consolidation of Mail Processing Operations at the       NO-AR-12-003
 Mansfield, OH Customer Service Mail Processing Center




                                                  26
